CAL. CODE OF CIV. PROC. § 17(6)
“Person” includes a corporation as well as a
natural person.
CAL. CODE OF CIV. PROC. § 1021.5
Upon motion, a court may award attorneys’ fees to
a successful party against one or more opposing
parties in any action which has resulted in the
enforcement of an important right affecting the public
interest if: (a) a significant benefit, whether pecuniary
or nonpecuniary, has been conferred on the general
public or a large class of persons, (b) the necessity and
financial burden of private enforcement, or of
enforcement by one public entity against another
public entity, are such as to make the award
appropriate, and (c) such fees should not in the
interest of justice be paid out of the recovery, if any.
CAL. CODE OF CIV. PROC. § 1060
Any person interested under a written
instrument, excluding a will or a trust, or under a
contract, or who desires a declaration of his or her
rights or duties with respect to another, or in respect
to, in, over or upon property, or with respect to the
location of the natural channel of a watercourse, may,
in cases of actual controversy relating to the legal
rights and duties of the respective parties, bring an
original action or cross-complaint in the superior court
for a declaration of his or her rights and duties in the
premises, including a determination of any question
of construction or validity arising under the
instrument or contract. He or she may ask for a
declaration of rights or duties, either alone or with
other relief; and the court may make a binding
declaration of these rights or duties, whether or not
1a

further relief is or could be claimed at the time. The
declaration may be either affirmative or negative in
form and effect, and the declaration shall have the
force of a final judgment. The declaration may be had
before there has been any breach of the obligation in
respect to which said declaration is sought.
CAL. HEALTH & SAFETY CODE § 25249.13
Nothing in this chapter shall alter or diminish any
legal obligation otherwise required in common law or
by statute or regulation, and nothing in this chapter
shall create or enlarge any defense in any action to
enforce such legal obligation. Penalties and sanctions
imposed under this chapter shall be in addition to any
penalties or sanctions otherwise prescribed by law.
28 U.S.C. § 1332(a)(1)
The district courts shall have original jurisdiction
of all civil actions where the matter in controversy
exceeds the sum or value of $75,000, exclusive of
interest and costs, and is between … citizens of
different States[.]
28 U.S.C. § 1367(a)
[I]n any civil action of which the district courts
have original jurisdiction, the district courts shall
have supplemental jurisdiction over all other claims
that are so related to claims in the action within such
original jurisdiction that they form part of the same
case or controversy under Article III of the United
States Constitution.
28 U.S.C. § 1653
Defective allegations of jurisdiction may be
amended, upon terms, in the trial or appellate courts.
2a

28 U.S.C. § 1446(b)
(1) The notice of removal of a civil action or
proceeding shall be filed within 30 days after the
receipt by the defendant, through service or
otherwise, of a copy of the initial pleading setting forth
the claim for relief upon which such action or
proceeding is based, or within 30 days after the service
of summons upon the defendant if such initial
pleading has then been filed in court and is not
required to be served on the defendant, whichever
period is shorter.
(2)
(A)
When a civil action is removed solely
under section 1441(a), all defendants who have been
properly joined and served must join in or consent to
the removal of the action.
(B)
Each defendant shall have 30 days
after receipt by or service on that defendant of the
initial pleading or summons described in paragraph
(1) to file the notice of removal.
(C)
If defendants are served at different
times, and a later-served defendant files a notice of
removal, any earlier-served defendant may consent to
the removal even though that earlier-served
defendant did not previously initiate or consent to
removal.
(3) Except as provided in subsection (c), if the
case stated by the initial pleading is not removable, a
notice of removal may be filed within thirty days after
receipt by the defendant, through service or
otherwise, of a copy of an amended pleading, motion,
order or other paper from which it may first be
ascertained that the case is one which is or has
become removable.
3a

28 U.S.C. § 1447(c)-(d)
(c) A motion to remand the case on the basis of
any defect other than lack of subject matter
jurisdiction must be made within 30 days after the
filing of the notice of removal under section 1446(a). If
at any time before final judgment it appears that the
district court lacks subject matter jurisdiction, the
case shall be remanded. An order remanding the case
may require payment of just costs and any actual
expenses, including attorney fees, incurred as a result
of the removal. A certified copy of the order of remand
shall be mailed by the clerk to the clerk of the State
court. The State court may thereupon proceed with
such case.
(d) An order remanding a case to the State court
from which it was removed is not reviewable on appeal
or otherwise, except that an order remanding a case
to the State court from which it was removed
pursuant to section 1442 or 1443 of this title shall be
reviewable by appeal or otherwise.

4a

